  Office of Inspector General
       Audit Report


 LONG TERM SUCCESS OF ATSAP WILL
REQUIRE IMPROVEMENTS IN OVERSIGHT,
ACCOUNTABILITY, AND TRANSPARENCY
        Federal Aviation Administration

        Report Number: AV-2012-152
         Date Issued: July 19, 2012
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Long Term Success of ATSAP Will                    Date:    July 19, 2012
           Require Improvements in Oversight,
           Accountability, and Transparency
           Report No. AV-2012-152

  From:    Jeffrey B. Guzzetti                                     Reply to
                                                                   Attn. of:   JA-10
           Assistant Inspector General
              for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           The United States has one of the best air safety records in the world, thanks in part
           to the actions of the nation’s air traffic controllers. However, operational errors,
           which occur when an air traffic controller fails to ensure the required separation
           distance between aircraft, remain a significant safety concern. Federal Aviation
           Administration (FAA) statistics show that the number of reported operational
           errors increased from 1,234 in fiscal year 2009 to 1,887 in fiscal year 2010.
           According to FAA, this increase was mostly due to increased reporting, such as
           through the Air Traffic Safety Action Program (ATSAP), rather than other factors
           that could contribute to an increase in the actual number of errors. FAA initiated
           ATSAP in July 2008 as a voluntary non-punitive reporting program to encourage
           FAA air traffic employees to report safety events and safety concerns, with the
           intent of capturing all events that might lead to a breakdown in safety. The
           program is governed by, among other things, a Memorandum of Understanding
           (MOU) established between FAA and the National Air Traffic Controllers
           Association (NATCA).

           In 2011, the Chairmen and Ranking Members of the Senate Committee on
           Commerce, Science, and Transportation and its Subcommittee on Aviation
           Operations, Safety, and Security as well as the Chairman of the House Committee
           on Transportation and Infrastructure and the Chairman and the Ranking Member
           of the House Transportation and Infrastructure Subcommittee on Aviation
           requested that we review ATSAP. Accordingly, our objectives were to 1) evaluate
           FAA’s progress with implementing ATSAP and 2) assess FAA’s oversight of
           ATSAP.
                                                                                                                          2


We conducted this audit in accordance with generally accepted Government
auditing standards. Exhibit A details our scope and methodology.

BACKGROUND
FAA modeled ATSAP after another voluntary safety reporting system used by
selected air carriers known as the Aviation Safety Action Program (ASAP).
Similar to ASAP, employees are promised that no punitive or disciplinary actions
will be taken as a result of reporting errors that could impact safety, provided
those errors are not the result of gross negligence or illegal activity.

Following an event, or identification of a safety problem, employees can file a
report online through the ATSAP Web site. The reports are reviewed by ATSAP
analysts 1 who remove personally identifiable information from the reports, link
multiple reports on the same event, and attach other available information
regarding the event. Then, Event Review Committees (ERCs) consisting of a
member of FAA’s Air Traffic Organization (ATO) management, a NATCA
representative, and a member of FAA’s Air Traffic Safety Oversight Service
(AOV) evaluate each report submitted to the program to determine whether it
meets the requirements set forth in the MOU between FAA and NATCA. If so, the
ERC accepts the report into ATSAP. 2

Once an ERC has accepted a report, FAA cannot take disciplinary action against
the involved employee. 3 However, the ERCs can recommend skill enhancement
training (SET) 4 to employees. ERC decisions are made by consensus, meaning
that all three members of the ERC must agree that the resolution of the event falls
within their range of acceptable solutions.

Accepted ATSAP reports are categorized as either “Safety Problem” or “Event”
reports. Safety Problem reports address policies, procedures, equipment, or
publications used to provide air traffic control services. Event reports identify
actual or potential losses of separation, including operational errors, or other
situations that may degrade air traffic safety. Prior to FAA’s implementation of a
revised ATO Order regarding ATSAP in January 30, 2012, event reports were
further categorized 5 as follows:

1
    ATSAP analysts can be contract personnel, FAA bargaining unit employees, or FAA managers.
2
    If the reported event is found to potentially involve criminal activity, substance abuse, controlled substances, alcohol,
    or intentional falsification, the MOU stipulates that it must be referred to an appropriate office within FAA for
    further action. If upon completion of subsequent investigation it is determined that the event did not involve any of
    the aforementioned activities, then the report will be referred back to the ERC for a determination of acceptability
    under ATSAP.
3
    If information becomes available later which indicates that the report should have been rejected, the ERC can reopen
    the case.
4
    SET is individually focused training that is designed to address specific controller performance issues.
5
    These categories are not included in the ATSAP MOU, which uses the terms “sole source” and “non-sole source.”
                                                                                                                3


    •   Known Events—events included in FAA’s Air Traffic Quality Assurance
        system (ATQA) 6 at the time an ERC reviews the ATSAP report;
    •   Unknown Events—events that are not reported in ATQA; or
    •   Other Events—events that the ERC believes may not result in a reportable
        event. 7

RESULTS IN BRIEF
FAA completed ATSAP implementation at all air traffic control facilities in
October 2010; however, the Agency will need to make significant improvements
before ATSAP will be able to effectively identify and address the root causes of
safety risks. As of December 31, 2011, FAA has collected more than 41,000
reports, and the program shows promise as a tool to promote increased safety
reporting. Yet, FAA has only recently developed processes to analyze ATSAP
data to identify safety trends and to share valuable safety data with individual air
traffic facilities. In addition, due to ATSAP provisions designed to protect
controller confidentiality, much of the ATSAP data that FAA collects are not
validated. In particular, unknown events, approximately 50 percent of all ATSAP
event reports, are not verified for accuracy before being accepted. Furthermore,
FAA has not yet finalized the process to effectively share ATSAP data so that
safety improvements can be made at the facility level. Finally, FAA has not
effectively communicated and implemented changes to performance management
under ATSAP, including assigning skill enhancement training to controllers.

FAA’s oversight of ATSAP lacks effective program management controls. For
example, FAA does not have a formal process to review the effectiveness of
decisions made by the program’s review committees. ERCs do not always adhere
to ATSAP report acceptance criteria established in the MOU. In addition, reports
were accepted into ATSAP that dealt with the conduct of controllers, rather than
specific safety issues. For example, a report was accepted into ATSAP concerning
a controller who was watching a video player while on duty. We consider this a
conduct issue that requires management attention rather than a safety issue
appropriate for a confidential safety program. While FAA has recently
implemented a process for dealing with reports that include controller conduct
issues, this process lacks management oversight. ATSAP ERCs can refer reports
that may include conduct issues to FAA’s Professional Standards Program (PSP) 8
for review, but the PSP does not require that actions be documented for

6
    ATQA is a FAA database used to capture and store the official investigation reports for air traffic incidents,
    including operational errors.
7
    Reportable events include operational errors and operational deviations.
8
    The Professional Standards Program is defined in Article 52 of FAA’s 2009 Collective Bargaining Agreement with
    NATCA. It is designed to allow bargaining unit employees to address conduct and/or performance issues of their
    peers before such issues rise to a level requiring corrective action by the Agency.
                                                                                                                      4


accountability, transparency, and resolution. Though most final decisions
regarding matters referred to the PSP are intended to be made by bargaining unit
employees at the facility level, if the PSP does not accept the referral, the issue
may be excluded from the program and handled through more traditional methods.
Failure to address these issues may lead to the perception that ATSAP is an
amnesty program in which reports are automatically accepted, regardless of
whether they qualify under the program’s guidelines.

We are making a series of recommendations intended to improve on the
implementation of ATSAP and to strengthen FAA’s internal controls, use of data,
and performance management within the program.

FAA IMPLEMENTED ATSAP, BUT SIGNIFICANT CHALLENGES
WITH IDENTIFYING AND ADDRESSING SAFETY RISKS REMAIN
FAA completed ATSAP implementation nationwide in October 2010 and has
received over 41,000 reports since the start of the program. ATSAP continues to
evolve in several key areas that impact FAA’s ability to use ATSAP data for
identification and mitigation of safety risks. FAA has only recently started to
develop effective processes to analyze ATSAP data to identify safety trends and is
still developing processes to communicate valuable safety data to individual
facilities. In addition, FAA has recently adjusted ATSAP policies and procedures
to comport with new air traffic orders implemented in January 2012 that change
how ATSAP reports are processed. The impact of these changes on improving
FAA’s use of ATSAP is still uncertain. Finally, FAA has not yet resolved issues
regarding performance management and accountability of controllers brought
about by the introduction of ATSAP, including the assignment of skill
enhancement training to controllers.

Deficiencies With ATSAP Data Analysis Limit FAA Efforts To Identify
and Mitigate Safety Risks
FAA has begun effectively using ATSAP reports to resolve specific safety issues
that the ERCs have identified. For example, FAA has developed a formal process
to ensure that recommendations made by ERCs are implemented. ATSAP can also
be used to elevate previously identified problems to ERCs, who then hold facilities
or lines of business accountable for corrective action through FAA’s formal
Corrective Action Request (CAR) process. 9 In one instance, ATSAP was used at a
Chicago air traffic facility to identify problems with communicating that a runway
had been shortened due to construction. Through the CAR process, FAA corrected
the issue throughout the National Airspace System (NAS) by issuing an air traffic

9
    A CAR is a formal request to a FAA line of business requesting corrective action for an identified safety issue. The
    objective of this process is to ensure that important safety issues receive high level visibility.
                                                                                                            5


order. In another case, FAA used ATSAP data through the CAR process to
address a long-standing issue involving improper altitude readings during cold
weather.

While ATSAP has resolved numerous issues, the program’s full potential is not
being realized because of ineffective data analysis. Although FAA can identify
high-level trends at the national level, they are not always specific enough for the
Agency to identify root causes. For example, causal factors are reported quarterly
under ATSAP using terms such as “actions or plans poorly executed” or “training
in progress during event,” which are too broad to identify specific mitigating
actions.

In addition, the data that FAA relies on for identifying safety trends are often not
verified for accuracy by the ERCs. As a result, any safety trend FAA develops
using data from unknown events may not be reliable. Approximately 50 percent of
all ATSAP event reports are classified as “unknown,” which means that the event
captured in the ATSAP report was not captured in FAA’s ATQA System 10 before
it was reviewed by an ERC. When ATSAP reports involve events already in
ATQA, ERC members are able to confirm the reports’ accuracy by gathering
information from facilities. However, ATSAP reports for unknown events are not
regularly cross-checked the same way because ERCs do not collect additional
information on unknown reports in order to protect controller confidentiality.
According to ERC members, they do not follow up on unknown events because
doing so would expose controller mistakes to managers at air traffic facilities,
which would then discourage reporting through ATSAP.

ERCs are also missing opportunities to validate reports that were classified as
“unknown.” Some of the events we reviewed that were classified as “unknown,”
and therefore not verified by the ERCs, were known to local management. For
example, we reviewed a statistical sample of 70 “unknown” reports, and found
4 reports that specifically referenced conversations with supervisors about the
event. Based on the results of our sample we estimate that in FY 2011, 302 or 5.7
percent out of 5,279 “unknown” event reports were incorrectly labeled as
“unknown.” 11 Since local management was already aware of the event, the data
could have been verified before the report was accepted.

FAA’s ability to conduct trend analyses has also been adversely impacted by the
still-evolving nature of ATSAP. The categorical system that FAA uses to identify
the causes of events in ATSAP has been revised twice since the Agency started its
pilot program, making it more difficult to perform trend analyses with the older
data in the system. FAA officials stated that they desire to transition away from
10
     FAA replaced ATQA with the Comprehensive Electronic Data Analysis and Reporting (CEDAR) system on January
     30, 2012.
11
     Our estimate has a margin of error of +/- 241 or 4.6 percentage points at 90% confidence.
                                                                                           6


categorical analysis, and focus more on “text mining,” or reviewing the text in
reports to identify causal patterns.

FAA Does Not Effectively Communicate Safety Data to Facilities
ATSAP’s current program structure makes it difficult for facilities to access
information. Direct access to the ATSAP database is restricted to contractor
employees, and data cannot be released without the consent of all three
organizations that are involved in ATSAP (i.e., ATO Management, AOV, and
NATCA). FAA has established a data request process to allow facility managers
to request information collected through ATSAP. However, many facility
managers that we interviewed stated that the process is time consuming and that
they were not satisfied with the information that was provided. For example, one
manager told us that when he requested information regarding his facility’s
operational errors, the information that he received was so heavily redacted, with
times and operational positions removed, that he was unable to use it for any
significant analysis.

To its credit, the Agency does publish summarized information about incidents
reported through ATSAP. However, this information is high level, scrubbed of
personal information, and does not contain details necessary to improve safety at
individual facilities. For example, information disseminated to facilities is based
on NAS-wide data, rather than detailing specific, local facility-level issues.
Facility managers that we spoke with stated that information routinely distributed
by the ATSAP Office in the form of briefing sheets and monthly/quarterly reports
is not detailed enough to be useful to them.

FAA recognizes that it does not have the resources to respond to all facility data
requests. To address this concern, FAA plans to develop a method to provide
facilities with access to additional safety data, through a pilot program that began
at five facilities in January 2012. Pending the results of the pilot, facility managers
and personnel will be able to use a new data portal to access information (both
qualitative and quantitative) that is specific to their facilities. FAA expects the
rollout of the new program to be completed by the end of FY 2012.

New Air Traffic Orders That Affect ATSAP Report Classification May
Not Improve the Program
FAA implemented new air traffic orders on January 30, 2012, that change how
FAA organizes, categorizes, and stores ATSAP data. 12 Under these orders, several
adjustments to ATSAP reports have been made. For example:



12
     FAA Order JO 7200.20. Voluntary Safety Reporting Programs (VSRP). January 30, 2012.
                                                                                       7


 • Due to difficulties in coming to consensus when ERCs apply the term “gross
   negligence,” FAA and NATCA agreed to supplement the ATSAP MOU by
   adding “knowingly introduced an unacceptable level of risk” to the
   program’s report acceptance criteria. However, this change in acceptance
   criteria may not lead to a clear and consistent resolution of the problems
   faced by the ERCs, due to the subjective definition of what constitutes
   “knowingly introducing an unacceptable level of risk.”

 • The categories of “unknown,” “known,” and “other” reports are eliminated
   under the new orders. Instead, FAA is transitioning ATSAP to a sole
   source/non-sole source system similar to airline ASAP agreements. However,
   the ATSAP MOU is much more generous than ASAP MOUs in regard to
   what qualifies as “sole-source.” ASAP considers a sole-source report to be
   any report where all evidence of the event available to FAA or the air carrier
   is predicated on the ASAP disclosure. The MOU between FAA and NATCA
   expands the sole-source category to include allowing an ATSAP report to be
   filed any time a controller has had an operational error or deviation. Sole-
   source reports are exempt from the MOU requirement that all ATSAP reports
   must be submitted within 24 hours of learning of the event, and in order to
   protect reporter confidentiality, the ERCs will not contact facilities if they
   believe an event is unknown to management. While this system could bolster
   confidence in ATSAP’s confidentiality, it also prevents facility management
   from becoming aware of potential safety problems.

While FAA’s new orders are an attempt to address several issues with ATSAP, it
is unclear whether these changes will result in needed improvements to the
program. They also may lead to new challenges depending on how they are
implemented and interpreted by FAA and the ERCs.

Facility Managers Do Not Always Understand Their Rights and
Obligations Under ATSAP
For ATSAP to work effectively, it is important for management at individual
facilities to understand their role in the program. FAA has not effectively
communicated management rights and responsibilities under ATSAP to facility
managers. For example, while FAA is not allowed to take punitive action against
controllers, such as decertification, for events that are accepted into ATSAP,
managers are allowed to conduct a post-event review, and “coach” a controller on
reported incidents. However, ERC members, facility managers, union
representatives, and other officials indicated that there are still significant issues at
the facility level with managers understanding what actions they were permitted to
take under ATSAP.
                                                                                                                          8


During ATSAP implementation, FAA provided training to facility managers and
bargaining unit employees prior to program initiation at individual air traffic
control facilities. However, both facility and ATSAP officials stated that the
training did not adequately address ATSAP performance management
expectations. Possibly as a result of ineffective management training, we found
examples of local facility managers under the erroneous impression that once an
ATSAP report had been filed, they could no longer discuss the event with
employees. Because of this misconception, it was very difficult to improve the
controller’s performance or address specific issues. FAA has attempted to address
these issues by holding workshops for front-line managers, and providing
additional training to air traffic management.

FAA Has Not Yet Resolved Issues Regarding Post-Event Skill
Enhancement Training
As FAA works to implement further improvements to the ATSAP program, the
Agency will be challenged with addressing issues related to the assignment of skill
enhancement training (SET) following significant safety events. Under the current
program, facility managers can recommend training for controllers who submit an
ATSAP report. However, ERCs can accept, modify, or reject these management
recommendations, or the ERCs can assign the training on their own. ERCs
typically concur with training recommendations that specifically address identified
skill deficiencies in controllers who have a demonstrated “performance history”—
i.e., controllers who were involved in multiple losses of separation events or had
other documented performance issues. Our review, however, found that ERCs
rarely assign SET. For example, in FY 2011, ERCs assigned this training in only
about 1.3 percent of the 8,500 known and unknown reports, 13 or 108 of those
cases.

Moreover, facility managers interviewed during this audit consistently expressed
concern about the rejection or reduction of their training suggestions by the ERCs.
For example, one ERC rejected a training recommendation for a developmental
controller 14 who was responsible for a serious loss of separation between a general
aviation airplane and a Boeing 737 airliner. Although facility management clearly
expressed that the controller needed the training, the ERC rejected the request due
to “a lack of performance history.” However, this was the first control position on
which the controller had been certified, and the controller had only been certified
on the position for 8 days—making it unlikely that he/she would have had a

13
     This represents the population of known reports (approximately 3,200) and unknown reports (approximately 5,300)
     for FY 2011.
14
     Controller trainees assigned to an air traffic control facility are considered “developmental” controllers until they
     have fully qualified as Certified Professional Controllers (CPCs). Developmental controllers that have certified on a
     given sector can independently work that sector, as they continue training to certify on the rest of their area sectors.
     However, developmental controllers do not become fully qualified as CPCs until they certify on all sectors within
     their assigned facility areas.
                                                                                                           9


documented performance history. Although the facility manager clearly expressed
concern about this controller’s skills to the ERC, the requested training was
denied.

In addition, ERCs rarely assign SET for unknown events due to concerns about
reporter confidentiality. According to ERC members, if a controller was assigned
training in response to reporting an unknown event, managers at the controller’s
facility may become aware that an ATSAP report was submitted and reprimand
the controller. Even though the reason for the assignment would remain unknown
to management, 15 the controller could view reporting through ATSAP as non-
confidential. Our review revealed that many controllers perceive SET as punitive,
and ERC members expressed concerns that assigning training for “unknown”
events would discourage personnel from reporting through ATSAP. However, as
SET is designed to address the performance deficiencies of air traffic personnel
that are identified by the ERCs, FAA may be missing opportunities to correct
issues that affect safety.

FAA’S OVERSIGHT OF ATSAP LACKS MANAGEMENT
CONTROLS IN KEY AREAS
FAA has not instituted sufficient management controls in key areas to effectively
oversee ATSAP. For example, FAA does not have a formal process for reviewing
or analyzing the decisions made by the ERCs. In addition, FAA and ATSAP
officials do not always comply with the criteria in the MOU that determines when
reports should be accepted. ATSAP guidance also does not disqualify reports that
involve aircraft accidents. Lastly, FAA’s process for handling ATSAP reports
involving potential misconduct lacks oversight.

FAA Does Not Review the Effectiveness of ERC Decisions
FAA does not have a formal process for reviewing the decisions made by ERCs.
As a result, FAA may have difficulty identifying whether ERC decisions regarding
reports, CARs, and SET are actually improving the safety of the NAS. For
example, FAA does not track how often an ERC rejects or modifies a SET request
from a facility and therefore cannot oversee whether ERCs are making these
decisions in the best interest of improving safety.

In addition, ERCs are making decisions on ATSAP reports without important
information about the report submitters. In particular, the ATSAP system does not
have an automatic flag to alert ERCs of controllers who have submitted multiple
reports on the same issue. Currently, ATSAP does not automatically link a current

15
     The fact that SET is assigned to a particular employee is documented; however, the NATCA ERC member will
     contact and work directly with only the submitters and their facility NATCA representatives.
                                                                                                                10


report with past reports submitted by the same person. While ATSAP analysts
have access to this information and can provide it to ERCs upon request, analysts
we interviewed stated that producing that information can be very time
consuming. One analyst stated that an ERC discovered by chance that one
submitter had already submitted 49 previous ATSAP reports. 16 Our review found
that as of July 2011, there were 6 employees who had each submitted over 100
reports. While many of these reports may represent safety problems identified by
controllers, rather than operational errors, repeat submitters warrant additional
scrutiny by ERCs to ensure they are not overlooking potential safety concerns.

FAA has also not yet developed a formal process for evaluating the effectiveness
of SET or for identifying best practices that might result from ATSAP reports.
ERC members stated that they want to change how SET was assigned prior to
ATSAP, because managers would assign ineffective training in a cookie cutter
approach to dealing with operational errors or controller weaknesses rather than
addressing the causes of errors. However, the lack of a formal process has
hindered FAA’s ability to assess the effectiveness of the training, or identify best
practices to improve the training that is assigned by the ERCs. While the new
orders that were implemented in January 2012 require that the ATSAP program
manager conduct periodic reviews in order to assess the effectiveness of SET
assignments, this process has not yet been completed.

Provisions of the ATSAP MOU Have Not Been Enforced
We found instances where FAA is not enforcing key provisions of the MOU
between FAA and NATCA that establishes the guidelines and requirements for the
program. These include issues with timeliness of ATSAP reports, lack of clarity
on key terms in the ATSAP MOU, inappropriate voting on reports that ERC
members personally submitted, and acceptance of ATSAP reports that involve
controller conduct or behavior issues.

Per the MOU, controllers are required to submit non-sole source reports within 24
hours of the event, or of learning of the event. Sole-source reports, which include
all losses of required separation submitted through ATSAP, are exempt from this
requirement. However, in some cases, at management instruction, ERCs have been
ignoring report submission deadlines in order to increase workforce acceptance of
the program. This non-compliance allows a controller who is involved in an event
to postpone submitting a report until it becomes apparent that the event will be
discovered, thus providing an incentive to not report all events.

In addition, the program does not provide sufficient guidance for the definition of
“gross negligence.” We found that ERCs have rejected very few ATSAP reports

16
     ATSAP guidance states that the number of reports that an employee has submitted should not be central to ERC
     decisions. However, a history of repeated non-compliance would be considered by the ERC when making a decision.
                                                                                                                      11


for gross negligence on the part of the controller. As of December 2011, only 8 of
over 28,000 safety event reports had been rejected for violation of paragraph
10a(2) of the ATSAP MOU, which includes gross negligence. ERC members
stated that gross negligence is one of the most difficult terms on which they have
to come to consensus due to the lack of a clear guidance on how to distinguish
between simple and “gross” negligence. As we discussed earlier in this report,
FAA has recently introduced new language through the new air traffic orders that
may help further define the criteria that ERCs use to determine whether to accept a
report. However, it remains to be seen whether this will be the case.

We also found that FAA lacks formal controls to prevent ERC members from
reviewing reports that they confidentially submitted. According to ERC and
program officials, NATCA representatives assigned to ERCs have participated in
discussions and voted on reports that they personally submitted on safety
problems. While FAA and NATCA have informed ERC members that they may
not participate in discussions or vote on reports that they submitted, the MOU,
Order, and other program guidance do not explicitly prohibit it. In addition,
personally identifiable information is removed from reports before they are
reviewed by the ERC, preventing the other ERC members from becoming aware
of a potential conflict.

Finally, reports have been accepted in ATSAP that suggest air traffic controller
conduct issues, rather than performance deficiencies. These include controllers
falling asleep, viewing a personal video player while on position, and refusing to
take handoffs 17 in a timely manner. Although the ATSAP MOU, Order, and
program guidance do not specifically exclude these types of reports, we question
whether they are appropriate for a confidential reporting program such as ATSAP.
Because these reports were accepted into ATSAP, the controllers involved were
immune from potential disciplinary actions for their conduct. While these
represent a very small number of reports in the context of the 41,000 that have
been accepted as of December 2011, accepting reports of this nature may lead to
the incorrect perception that ATSAP is an amnesty program where reports are
automatically accepted.

Aircraft Accidents Involving Potential Controller Error Are Eligible for
ATSAP Processing, Thus Limiting Accountability and Safety
Investigations
ATSAP currently allows reports involving accidents (including fatal accidents) to
be accepted into the program, similar to ASAP. In our May 2009 report on


17
     Handoff - An action taken by air traffic controllers to transfer the radar identification of an aircraft from one
     controller to another if the aircraft will enter the receiving controller's airspace and radio communications with the
     aircraft will be transferred.
                                                                                                                      12


airlines’ ASAPs, 18 we recommended that FAA exclude reports involving accidents
from ASAP eligibility. We stated that they undermined ASAP’s fundamental
purpose—to gain access to safety information that might otherwise remain
unknown—by allowing employees to report safety violations that contributed to
an accident without fear of reprisal through legal or disciplinary actions. FAA did
not agree with our recommendation, stating that accepting accident reports into
ASAP may result in a faster analysis, due to the extended time it takes to formally
investigate an accident. FAA added that it would consult with the National
Transportation Safety Board (NTSB) on this matter. However, this
recommendation is still open.

The ATSAP MOU contains similar language in regard to its stated purpose, and
does not exclude reports that involve accidents from the program. FAA believes
that allowing reports that are involved in accidents into the program will
encourage controllers to be open and honest following an accident, which will
result in more information being gathered immediately following an accident.
However, since all accidents are reported to FAA and investigated thoroughly by
both FAA and the NTSB, it is unlikely that any significant unknown information
would be gleaned through acceptance of any accident into ATSAP. In addition,
given the potential severity of an accident, we question whether it is appropriate to
accept reports into a program that eliminates that possibility of disciplinary action
against an employee who may have contributed to an accident.

ATSAP Processing of Controller Misconduct Reports Lacks
Transparency and Accountability
FAA has recently implemented a separate process for handling accepted ATSAP
reports that involve controller misconduct that does not rise to the level of gross
negligence. ERCs refer reports that involve potential controller misconduct to the
Professional Standards Program (PSP). The PSP is designed to allow bargaining
unit employees to address conduct or performance issues of their peers before such
issues rise to a level requiring corrective action by the Agency.

However, FAA’s management oversight of the PSP is limited, and there is
minimal transparency behind the PSP’s decisions. For example, final resolution of
misconduct issues is conducted at the facility level by a committee that is solely
composed of bargaining unit employees. 19 In addition, the agreement between
FAA and NATCA that established the PSP does not allow records to be kept on
individual PSP decisions. As a result, the referring ERC does not receive specific
information on the disposition of any issue referred to the PSP, only notification
that the issue has been “resolved.” As a result of this lack of oversight and

18
     OIG Report No. AV-2009-057. May 14, 2009. OIG reports are available on our Web site at http://www.oig.dot.gov/.
19
     Not all facilities have their own committees. In those cases, a labor representative of the National PSP workgroup is
     assigned.
                                                                                   13


transparency, FAA cannot evaluate whether PSP decisions fairly and appropriately
resolve any potential misconduct issues reported through ATSAP, which also
limits FAA’s ability to hold the PSP accountable for any actions taken.

CONCLUSION
With reported numbers of operational errors by controllers on the rise, it is critical
that FAA determine the root causes of these safety issues and mitigate their risk.
FAA’s ATSAP could provide an opportunity to enhance the collection of safety
data through voluntary, non-punitive reporting. However, FAA must overcome
significant implementation and oversight challenges before ATSAP can realize its
full potential as an effective tool for identifying and addressing safety risks. Until
FAA provides better enforcement of the terms agreed to in the ATSAP MOU,
focuses its trend analyses on root causes, enhances communication with facilities,
and ensures that the decisions made regarding reports are true to the intent of the
program, FAA’s ability to improve the safety of the National Airspace System
through ATSAP will be diminished.

RECOMMENDATIONS
To enhance FAA’s use of ATSAP data and improve internal oversight controls for
the program, we recommend that FAA:

1.   Perform analysis to determine the root causes of incidents reported through
     ATSAP.
2.   Expedite the development of a process to provide facility access to ATSAP
     data.
3.   Provide recurring training to front line management regarding their rights and
     responsibilities under ATSAP.
4.   Create a system to track best practices when assigning skill enhancement
     training, and communicate these best practices to facility management.
5.   Establish a periodic review of ERC actions.

6.   Enact a written policy that forbids ERC members from discussing or voting
     on reports that they have submitted and require ERC members to attest that
     they are not personally involved in any reports that will be discussed before
     every ERC meeting.
7.   Develop an automated “flag” to easily identify repeat ATSAP report
     submitters.
8.   Provide clear guidance to ERCs on what constitutes “knowingly introducing
     an unacceptable level of risk.”
                                                                                                                   14


 9.       Develop a process permitting ERCs to validate all reports submitted to
          ATSAP.
10. Revise ATSAP guidance to exclude accidents from the program.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with a draft copy of this report on May 17, 2012, and received
FAA’s response on June 15, 2012. FAA’s response is included in its entirety in the
appendix to this report. In its response, FAA fully concurred with
recommendations 1, 2, 3, 5, and 7 and provided reasonable timeframes for
completing the planned actions. FAA partially concurred with recommendations 4,
6, and 8 and has either begun to fully institute our recommendations or has
provided satisfactory alternative courses of action that meet our intent, also within
reasonable timeframes. FAA did not concur with recommendations 9 and 10, and
we are requesting that the Agency reconsider its responses.

For recommendation 9, FAA did not agree to develop a process permitting ERCs
to validate all reports submitted to ATSAP, inferring that maintaining strict
confidentiality supersedes the need for reliable and accurate data. In addition,
FAA claimed that ATSAP ERCs validate a far higher number of reports than any
other FAA confidential voluntary reporting program. However, at the time of our
review, approximately 50 percent of accepted ATSAP reports were categorized as
“unknown” events and were not captured or investigated through FAA’s quality
assurance system when they were considered by an ERC. As a result, about half of
the data collected through ATSAP is not verified for authenticity or accuracy, and
any trend analyses performed for identifying and mitigating hazards that depend
on ATSAP data must be considered unreliable at best. While FAA has changed
how it categorizes ATSAP reports, 20 the underlying issue of not contacting
facilities or investigating events to validate reports before accepting them still
remains. Given the importance of accurate data for meeting FAA’s goals of
improving safety, we request that the Agency reconsider its position.

For recommendation 10, FAA did not agree to exclude accidents from ATSAP,
stating that employees may be more accurate and candid in an ATSAP report than
they might be in interviews with either NTSB or FAA. We disagree with this
assertion. In our opinion, aviation professionals should understand that it is their
responsibility to be candid with a Federal investigator after an accident. Further,
while accident investigations may take several years to complete, NTSB teams
usually arrive on accident scenes within hours, question witnesses immediately,

20
     As of January 31, 2012, FAA no longer classifies event reports as “known”, “unknown”, or “other”, and has replaced
     those categories with “sole-source” and “non-sole-source.”
                                                                                15


and have far greater investigative resources and skills than ERC members.
Therefore, we continue to maintain that accidents should be excluded from
ATSAP and request that the Agency reconsider its position.

ACTIONS REQUIRED
We consider recommendations 1, 2, 3, 4, 5, 6, 7, and 8 resolved but open pending
the completion of the actions taken or planned. However, we request that FAA
reconsider its position regarding recommendations 9 and 10. In accordance with
DOT Order 8000.1C, please provide your written response regarding
recommendations 9 and 10 within 30 days of issuance of this report.

We appreciate the courtesies and cooperation of FAA and NATCA representatives
during this audit. If you have any questions concerning this report, please contact
me at (202) 366-0500 or Bob Romich, Program Director, at (202) 366-6478.

                                        #

cc: Pierre McLeod, AAE-100
    Martin Gertel, M-1
                                                                                       16


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

The audit was conducted between June 2011 and May 2012, and included site
visits to FAA and NATCA Headquarters, nine Terminal Services facilities
(ATCTs and TRACONs), six ARTCCs, and three ATO Service Centers. In
addition, we interviewed representatives of the FAA Managers Association, CSSI
Inc., and NTSB. A full list of the 15 air traffic facilities we visited or contacted
during this audit—which were selected based on their geographic location and
facility type—can be found in Exhibit B.

To evaluate FAA’s progress with implementing ATSAP, we compared FAA’s
stated goals of ATSAP to benefits that were actually being derived from the
program. This included assessing FAA’s approach to using the data collected
through ATSAP as a way to improve safety. We also evaluated how ATSAP
reports are processed and how the program has impacted the operational
functionality of air traffic facilities. We did this by meeting with air traffic
managers, ATSAP officials, and ERC members, and then identifying areas where
ATSAP could be improved. As ATSAP is an agency-wide program, we conducted
site visits and interviewed FAA air traffic officials at air traffic control facilities to
determine if a uniform set of procedures were being followed throughout the NAS.

Due to the confidential nature of the program, we selected two statistical samples:
(1) 70 out of 5,279 “unknown” and (2) 70 out of 3,194 “known” redacted ATSAP
reports. We analyzed these samples to determine whether ATSAP reports were
being categorized correctly. We also identified information that FAA could use in
these reports to improve safety

To assess FAA’s oversight of ATSAP, we reviewed the guidelines and policies
that FAA created for ATSAP. To determine if they were being adhered to, we met
with air traffic managers, ATSAP officials, and ERC members, and compared
ATSAP’s policies to what was actually being practiced. We also evaluated the
controls that FAA has in place to prevent abuse of ATSAP and to ensure that the
program is used to improve safety.




Exhibit A. Scope and Methodology
                                                17


EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED

FAA Headquarters
Air Traffic Organization (ATO)
Air Traffic Safety Oversight Service (AOV)

Air Traffic Control Facilities
Washington ARTCC
Potomac TRACON
Hartsfield-Jackson Atlanta ATCT
Atlanta ARTCC
Atlanta TRACON
Salt Lake City ATCT/TRACON
Salt Lake City ARTCC
Memphis ARTCC
Memphis ATCT/TRACON
Chicago O’Hare ATCT
Chicago TRACON
Chicago ARTCC
Minneapolis ARTCC
Minneapolis ATCT/ TRACON
Cleveland ATCT/TRACON

ATO Service Areas
ATO Eastern Service Area, Atlanta, GA
ATO Central Service Area, Fort Worth, TX
ATO Western Service Area, Seattle, WA

Other Organizations
National Air Traffic Controllers Association
FAA Managers Association
National Transportation Safety Board




Exhibit B. Organizations Visited or Contacted
                                                           18


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                    Title

Robert Romich                           Program Director

Christopher Frank                       Project Manager

Erik Phillips                           Senior Analyst

Andrew Olsen                            Auditor

Audre Azuolas                           Writer/Editor

Seth Kaufman                            Senior Counsel

Petra Swartzlander                      Statistician




Exhibit C. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                19



                   Federal Aviation
                   Administration

Memorandum
Date:      June 15, 2012
To:        Jeffrey B. Guzzetti, Director, Assistant Inspector General for Aviation and
           Special Program Audits
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:   FAA Response to OIG Draft report: Long Term Success of ATSAP Will
           Require Improvements in Oversight, Accountability, and Transparency


Since the beginning of implementation in mid-2008, no other safety program has
identified and fixed more local and systemic issues than the Air Traffic Safety Action
Program (ATSAP). Since this time, ATSAP Event Review Committees (ERCs) have
issued 79 corrective action reports, 59 of these have received responses to which ERCs
have concurred, and 29 have been fully implemented and closed. In addition, ATSAP
has begun information sharing with several airlines’ Aviation Safety Action Programs
(ASAP), which has already yielded safety benefits for the airlines and the Air Traffic
Organization (ATO). While the Federal Aviation Administration (FAA) agrees that
improvements in oversight and transparency can and will be achieved for the ATSAP,
guidance regarding accountability has already been improved and ATSAP has made
numerous contributions to the FAA’s safety mission. The FAA appreciates the
recommendations in your report and will use them to improve guidance and training for
ERC members and analysts, as well as in communicating trends to the field. Attached as
an addendum, is a summary of national issues addressed by ATSAP.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Perform analysis to determine the root causes of incidents reported
through ATSAP.

FAA Response: Concur. The FAA is working with the ATSAP primary contractor,
CSSI Inc., and also with the MITRE Corporation through the Aviation Safety
Information and Analysis System (ASIAS) to improve the determination of the root
causes of incidents reported through ATSAP. This update will be complete by end of
fiscal year (FY) 2012.




Appendix. Agency Comments
                                                                                          20


In addition, the ATSAP Office undertook a thorough review of the existing ATSAP
database in 2011 to better identify causal and contributory factors and determine ways to
improve their identification. The Program Office enlisted the assistance of independent
research scientists specializing in the discipline of Human Factors (Michael Sawyer,
PhD, and Katherine Barry, PhD, both now with the Fort Hill Group) to revise and add
questions from the ATSAP submitter form to better enable the identification of causal
and contributory factors in accordance with a Human Factors Analysis and Classification
System taxonomy being developed for use across the Air Traffic Organization (ATO).
That work resulted in a revised version of the ATSAP submitter form, which allowed the
submitter to self-identify individual and organizational factors contributing to an incident.
The form was introduced in May 2011. The same body of work formed the basis of a
common taxonomy project that will allow similar causal and contributory factors to be
identified by the Event Review Groups, Risk Analysis panels, Quality Assurance
Reviews and other types of investigations and audits across the ATO. The FAA will
have one year of data under the new taxonomy system as of June 1, 2012 and a
significantly improved ability to analyze that data to determine root causes.

Additionally, two existing programs already provide the ability to use ATSAP and other
industry ASAP reports in trend analysis; 1) the Aviation Safety Reporting System
(ASRS) and, 2) ASIAS. The ASRS system is a reporting program through which
individuals voluntarily and non-punitively provide safety information. The majority of
ASRS reports received from air traffic employees are, in fact, ATSAP reports. The
National Aeronautics and Space Administration, who maintains the ASRS database (to
provide impartiality and ensure submitter confidentiality), routinely, provides “Alerts” to
the FAA concerning safety issues identified from ASRS submissions. The FAA is also
committed to the establishment of ASIAS as a centralized system for the acquisition and
analysis of ASAP (including ATSAP) and other safety-related information at a national
level. ATSAP data has been shared with ASIAS since early in the program’s inception,
and it is included in all of the directed studies being conducted at the direction of the
ASIAS Executive Board.

Recommendation 2: Expedite the development of a process to provide facility access to
ATSAP data.

FAA Response: Concur. Work on this effort is ongoing. A web-based Safety Data
Portal, to be used by facilities with approved local safety councils, has been prototyped
and is undergoing test and evaluation by representatives from eight air traffic facilities.
This portal is part of a program being deployed within ATO’s Partnership for Safety
program. Portal development has been supported by the MITRE Corporation under the
direction of the FAA and will contain quantitative data such as weather, track and
National Offload Program data, and Mandatory Occurrence Reports as well as qualitative
data from ATSAP. Available ATSAP information will include general topics being
reported by employees at the user’s facility, certain common terms identified through
semantic text mining, and the primary causal and contributory factors being reported.
Facility-specific information will be compared to aggregated data. Testing and
evaluation of the Safety Data Portal system is scheduled to be completed in time for a



Appendix. Agency Comments
                                                                                       21


national deployment by the end of calendar year (CY) 2012. At that time, portal access
will be available to all facilities with approved local safety councils.

Recommendation 3: Provide recurring training to front line management regarding their
rights and responsibilities under ATSAP.

FAA Response: Concur. In conjunction with the introduction of the JO 7200.20
Voluntary Safety Reporting Programs Order, a computer-based course in the electronic
Learning Management System ((eLMS), course 60004561, part of Proactive Safety
Management Training) was introduced in December 2011 and required for all operational
personnel who maintain familiarity or currency in the Terminal and En Route operational
environment, including Traffic Management personnel. The required completion date
was January 30, 2012. The module included an overview of the 7200.20 Order, which
outlines management responsibility after an event. The Order contains the following
language:

7200.20 Chapter 3 (ATSAP) section 3-5 c. - Facility Manager must…:

(c) Provide the ERC all relevant information or Skill Enhancement Training (SET)
recommendations within 3 administrative days of notifying the employee of the event. A
review of an employee’s performance during an occurrence is not disciplinary in nature.
Such a review is necessary to consider whether additional action is appropriate.
Supporting information must accompany any recommended corrective action.

NOTE: The ERC is interested in any additional information that the facility
management, union representative, and submitter can provide that would help the ERC
understand not only what happened during a safety event, but also why the event
happened. If the facility intends to propose SET, they must supply the information relied
upon to make that recommendation such as: relevant portions of the employee’s
performance history, involvement in similar types of events, any ongoing training, and
other performance directly related to this type of event. A joint proposal from facility
management and the union representative provides the most useable feedback for the
ERC.

The ATSAP recurrent training eLMS course 68000277 was introduced in February 2012,
as mandatory training for all operational personnel who maintain familiarity or currency
in the Terminal and En Route operational environments, including Traffic Management
personnel. All front line managers and operational managers who maintain currency are
required to complete the module prior to October 31, 2012.

ATSAP ERC members also participate in the Operational Supervisor’s Workshops
(OSW) on a monthly basis. This training provides front line managers with recurrent
training on the ATSAP processes, roles and responsibilities of program participants, etc.
The OSWs also provide front line managers with the ability to directly ask questions of
ERC members.




Appendix. Agency Comments
                                                                                         22



Recommendation 4: Create a system to track best practices when assigning skill
enhancement training, and communicate these best practices to facility management.

FAA Response: Partially concur. The ATSAP Office has already created a repository
of the types of SET for which positive feedback has been received from either the
participant or the facility. This tool is available to all ATSAP ERC members and is
maintained and updated. The FAA agrees that training development personnel in ATO
Safety and Technical Training should solicit feedback about the training that they
develop and maintain. Technical Training will request this feedback by the end of CY
2012. The FAA does not agree that this is an ATSAP ERC responsibility.

The fundamental tenet of voluntary safety reporting is that self-learning and self-
correction occur as the result of reporting. Thinking through the actions and conditions
that led to an incident, understanding why it happened, and writing a recommendation
that details how the individual would act differently to avoid a similar action, mistake, or
outcome in the future provides a significant learning opportunity. This is a primary
benefit of any confidential voluntary safety reporting program. Available research on
human error does not support the concept that controllers and pilots primarily make
mistakes because they have not been appropriately trained or are not properly qualified
and that some form of external instruction is the preferred response.

Recommendation 5: Establish a periodic review of ERC actions.

FAA Response: Concur. The ATSAP Office has begun work to adapt an audit form
used by the Flight Standards Voluntary Reporting Programs Branch (AFS-230) to the
needs of the air traffic control-specific program and will complete this work by the end of
FY 2012. Audit responsibilities will be added to the ATSAP Administration Manual by
the end of FY12.

Recommendation 6: Enact a written policy that forbids ERC members from discussing
or voting on reports that they have submitted and require ERC members to attest that they
are not personally involved in any reports that will be discussed before every ERC
meeting.

FAA Response: Partially Concur. The ATSAP Office has added a statement to the
confidentiality agreement that all ERC members are required to sign, which reads:

"I agree that I will recuse myself from participating in the resolution of any ATSAP
report that I submit."

This statement has already been added to the agreement and notification sent to the
National Air Traffic Controllers Association ERC members requesting an affirmative
response. The confidentiality agreement is currently an attachment to the 7200.20 Order
and will be updated in the first revision, therefore becoming part of the ATSAP




Appendix. Agency Comments
                                                                                       23


Administration Manual. In addition, this requirement has been added to the new ERC-
member training synopsis.
Recommendation 7: Develop an automated “flag” to easily identify repeat ATSAP
report submitters.

FAA Response: Concur. A programming request will be submitted and programming
should be updated by the end of FY 2012.

The flag will only identify whether an individual has previously submitted an ATSAP
report; not reports concerning a similar instance of noncompliance. Identifying whether a
similar instance of noncompliance occurred requires an analyst to manually review all
reports submitted by an individual. The single comment attributed to an ATSAP analyst
in this audit report does not specify whether or not there were 49 similar events or only
safety problems reported by a submitter. Many individuals file multiple reports about
issues they consider safety problems; in fact, ATSAP training encourages them to do so.
For example, during the implementation of En Route Automation Modernization
(ERAM), some individuals filed dozens of reports about their experience with the new
software. Those reports were shared with the ERAM Implementation Office and proved
to be invaluable in early identification and resolution of programming issues.

In the case of a repeat submitter, the ERC will still have to determine whether causal
factors are similar and could be corrected by some individual action. Frequent reporting
does not in and of itself indicate the submitter has performance issues; only that a
submitter has filed numerous reports. Conversely, because an individual has never
submitted a report that does not indicate they have never violated a requirement or been
involved in an event.

Recommendation 8: Provide clear guidance to ERCs on what constitutes “knowingly
introducing an unacceptable level of risk.”

FAA Response: Partially concur. The FAA will provide ERC members with training
that provides examples of actions that could constitute intentional introduction of an
unjustifiable level of risk. This training will be developed and conducted by the end of
CY 2012. However, since each situation is unique with distinct circumstances, it is not
possible to provide in such training a definitive outcome for every possible scenario. For
example, one of the incidents cited as evidence of a “conduct issue, rather than a
performance deficiency” was one in which a controller fell asleep. The ERC determined
there were mitigating circumstances in this isolated case and the FAA ultimately
corrected several systemic issues.

Recommendation 9: Develop a process permitting ERCs to validate all reports
submitted to ATSAP.

FAA Response: Non-concur. ATSAP ERCs validate a far higher number of these
subjective confidential reports through recorded means than any other ASAP.




Appendix. Agency Comments
                                                                                       24


Additionally, the FAA wishes to emphasize the importance of confidentiality in voluntary
safety reporting programs. If an incident is not logged in the Comprehensive Electronic
Data Analysis and Reporting system and a submitter indicates they told their supervisor
or Controller-in-Charge about it and an ATSAP analyst contacts the facility to validate an
event, such action may violate the confidentiality of the submitter.

Recommendation 10: Revise ATSAP guidance to exclude accidents from the program.

FAA Response: Non-concur. The FAA understands the analysis that resulted in this
recommendation; however, we remain concerned that excluding accidents from ATSAP
(along with any other ASAP) may have unintended consequences. The FAA provided
similar comments in response to the OIG’s recommendation in the May 2009 audit of
ASAP. While it is true that accidents are fully investigated by either the FAA or the
National Transportation Safety Board (NTSB), those investigations often take several
years to complete.

Investigations benefit from the most detailed and candid recollections of the people
involved in the event. Because ATO employees trust the ATSAP process, it is possible
they will be more accurate and candid in an ATSAP report than they might be in
interviews with either NTSB or FAA. In addition, an ATSAP report requires that the
ERC review and recommend corrective actions in a short time frame. This quick
response allows for safety risks to be mitigated before either FAA or NTSB completes
their formal investigations. Excluding accidents from the ATSAP program may risk
losing important details that those involved recall directly after an event. It may also
delay safety enhancements that can benefit the ATO, employees, and the traveling public.




Appendix. Agency Comments
                                                                                       25

                        Attachment: ATSAP Accomplishments

See the following list of safety issues identified and in many cases corrected.

Examples of National Issues addressed by ATSAP

Included in the examples below are instances where ATSAP identified and took action to
correct national or National Airspace System (NAS)-wide safety issues. In some cases,
the information that was reported through ATSAP and supported by existing objective
FAA data was so overwhelming that national Corrective Action Requests (CARs) were
issued prior to the completion of the national rollout of ATSAP. In addition to NAS-
wide CARs, ATSAP has also provided valuable information to many other projects and
initiatives.

1. CAR 005a: Issued March 8, 2010 identifying a NAS-wide safety issue relating to the
    use of the term “Full Length” during airport construction where the runway has been
    shortened and a displaced threshold is in place.
2. CAR 013: Issued March 26, 2010 identifying a confliction between FAAO 7110.65
    paragraphs 2-1-14, 5-4-5 and 5-4-6, and the introduction of risk into the NAS
    concerning responsibility of point-out procedures.
3. CAR 019: Issued May 25, 2010 identifying a long-standing issue concerning the
    introduction of risk into the NAS concerning Cold Weather Altimeter Settings.
    ATSAP was able to provide additional information to those working the issue that
    was previously not available.
4. CAR 023: Issued June 14, 2010 identifying a NAS-wide safety issue concerning
    Similar Sounding Call signs. ATSAP was able to provide information previously not
    available to the aviation community.
5. CAR 024: Issued June 24, 2010 identifying a NAS-wide safety issue concerning
    Navigation Aid (NAVAID) use limitations.
6. CAR 025: Issued July 12, 2010 identifying a NAS-wide safety issue concerning the
    implementation and training of Traffic Management Advisor (TMA).
7. CAR 031: Issued August 20, 2010 identifying a NAS-wide safety issue concerning
    Weather Deviation procedures.
8. CAR 2010-008: Issued February 24, 2011, which identified a NAS-wide safety issue
    concerning the lack of a systematic and efficient manner to identify changes to charts
    when these occur on the 28-day interim cycle and the 56-day cycle.
9. CAR 2010-036: Issued October 22, 2010 identifying a NAS-wide safety issue relating
    to Air Force Reserve (AFRES) 53rd Weather Reconnaissance Squadron aircraft
    (using call sign TEAL) and National Oceanic and Atmospheric Administration
    (NOAA) aircraft conducting Hurricane Hunter operations.
10. CAR 2010-040: Issued November 17, 2010 identifying a NAS-wide safety issue
    concerning aircraft deviating into active Special Use Airspace (SUA) during adverse
    weather events.
11. CAR 2010-044: Issued December 13, 2010 identifying a NAS-wide safety issue
    concerning language barrier concerns involving foreign pilots in flight schools.




Appendix. Agency Comments
                                                                                       26


12. CAR 2011-006: Issued March 15, 2011 identifying a NAS-wide safety issue
    concerning the lack of sufficient space for on-the-job-training instructors (OJTIs) to
    effectively monitor their trainees during live operations.
13. CAR 2011-007: Issued May 10, 2011 identifying a NAS-wide safety issue concerning
    the “QU” function in the En route environment impacting aircraft routings.
14. CAR 2011-008: Issued May 24, 2011 identifying a NAS-wide safety issue concerning
    display system replacement (DSR) lock-ups at numerous centers across the country.
15. CAR 2011-009: Issued May 24, 2011 identifying a facility-specific glider operations
    issue, but after reviewing root causes, mitigations will address a NAS-wide safety
    issue.
16. CAR 2011-010: Issued May 24, 2011 identifying a NAS-wide safety issue concerning
    Traffic Management Unit (TMU) coordination procedures.
17. CAR 2011-014: Issued August 18, 2011 identifying a NAS-wide safety issue
    concerning Severe Weather operations.
18. CAR 2011-016: Identifying a NAS-wide safety issue concerning Flight Service
    Station responses.
19. CAR 2011-017: Issued February 24, 2011, which identified a NAS-wide safety issue
    concerning confusion when reviewing NOTAMS as to the term "AD CLSD".
20. CAR 2011-020: Identifying a NAS-wide safety issue concerning D-BRITE use in the
    tower cab to provide radar services in lieu of opening the approach control facility.
21. CAR 2011-021: Identifying a NAS-wide safety issue concerning losses of separation
    when visual separation is being applied.
22. CAR 2011-025: Issued December 21, 2011 that identified a NAS-wide safety issue
    concerning VIP Movements including POTUS, VPOTUS, and FLOTUS.
23. CAR 2011-026: Issued February 24, 2011 that identified a NAS-wide safety issue
    concerning the "Auto-Handoff" functionality within "HOST".
24. CAR-2012-003: Issued May 24, 2012 that identified a NAS-wide safety issue
    concerning controllers' responsibilities in resolving conflict between IFR and VFR
    aircraft.
25. CAR-2012-004: Issued April 6, 2012 that identified a NAS-wide safety issue
    concerning inconsistencies in the display of Next Generation Weather Radar
    (NEXRAD) and Weather and Radar Processor (WARP) indicating erroneous
    indication of precipitation density on radar displays.

Additionally:
26. ATSAP added questions to the submitter form in May 2011 that allow controllers to
    self-identify acute and chronic fatigue. This information will be used in the
    development of mitigations that are responsive to NTSB recommendations and
    improve the health and well-being of FAA employees in safety-critical positions.
27. ATSAP provided valuable information reported by front line personnel to ATO
    Technical Training for use in the creation of new Recurrent Training for 2012. This
    information provided training and subject matter experts (SMEs) with the root causes
    of mistakes, allowing them to tailor the training to correct those causes. Training
    included Wake Turbulence, Bird Activity, Runway Incursions, Controller Weather




Appendix. Agency Comments
                                                                                        27


    Responsibility, Traffic Advisories/Safety Alerts, Icing, Thunderstorms, and visual
    flight rules (VFR) aircraft in weather.
28. ATSAP provided real-world scenarios where the lack of Crew Resource Management
    (CRM) fundamentals was contributory to a larger issue. The use of these scenarios is
    included in the Integrated Safety Training (IST) workshop, allowing ATO to train
    CRM more effectively.
29. The ATSAP Analysis Team identified a safety issue, including root causes, involving
    OJTI. This information has been included in the IST workshops being deployed
    nationwide.
30. In support of NextGen planning, ATSAP provided analysts hundreds of reports
    concerning Radar Handoffs. These analysts have been successful in identifying root
    causes and potential mitigation strategies. Concurrently, ATSAP issued CAR 2011-
    26 on Auto-Handoffs.
31. Through the Confidential Information Sharing Program (CISP) with the airlines,
    ATSAP has been able to identify root causes to a national safety issue concerning
    Non-Reduced Vertical Separation Minima (RVSM)-equipped aircraft operating in
    RVSM airspace. This has raised awareness throughout the General Aviation (GA)
    and Commercial pilot workforce and has been reinforced in a publication called
    “InFO,” which is distributed by Flight Standards. Additionally, as a result of
    recognition of this issue, specialized training is being developed for all controllers.
32. ATSAP data was used in support of an ASIAS-directed study concerning the risks
    associated RNAV Off The Ground procedures.
33. ATSAP data was used in support of an ASIAS-directed study concerning the risks
    associated with Pilot/Controller Communications.
34. ATSAP provided the Risk Analysis Program (RAP) with supporting data to ensure
    that all safety issues reported through the program were taken into account when
    determining ATO’s Top 5 Hazards.
35. Through ATSAP's CISP, a serious deficiency in existing wind equipment at Chicago
    Midway International Airport (MDW) was identified and quickly funded, and
    equipment was procured to replace failed systems.
36. Also through CISP, partner airlines were alerted to a large Sailplane event at a large
    southwest airport, and participating companies forwarded information to their flight
    crews about the event.
37. The ATSAP office has distributed 113 Briefing Sheets and eight Alert Bulletins
    covering issues identified in ATSAP reports including Pilot-Controller
    Communications, Wake Turbulence, Aircraft Early Turns, Coordination of Interim
    Altitudes, the effects of Hypoxia on Pilots, Position Relief Briefings and Point-outs,
    Opposite Direction operations, TCAS RA notifications, Controller Professionalism,
    Prohibitions on Cell Phone Usage on duty, and understanding Fatigue.
38. ATSAP has or is currently fulfilling data requests regarding Human Factors issues in
    Handoffs, Separation Standards, ERAM, Runway Safety, NOTAMs, Unmanned
    Aerial Systems (UAS), Standard Terminal Automation Replacement Systems
    (STARs), LOAs, Class B Airspace, and Airport Surface Detection Equipment-Model
    X (ASDE-X), among others.




Appendix. Agency Comments
